APPENDIX
APPENDIX A

NINTH CIRCUIT COURT OF APPEAL'S DECISION IN
UNITED STATES v. WASHINGTON
APPEAL NO. 117-10141 (9th Cir. 3/17/2020)

Case: 17-10141, 03/17/2020, ID: 11631907, DktEntry: 53-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

MAR 17 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

17-10141

D.C. No.
2:13 -cr-00206-MCE-1

v.
ISRAEL WASHINGTON, AKA Puck,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Argued and Submitted November 12,2019
San Francisco, California
Before: THOMAS, Chief Judge, and WARDLAW and COLLINS, Circuit Judges.
Israel Washington appeals his conviction and sentence forjwo conspiracies
to distribute controlled substances and related crimes. We have jurisdiction under
28 U.S.C. § 1291 and 18 U.S.C. § 3742, and we affirm.
1. The district court did not plainly err in failing to sua sponte give a
conspiracy unanimity instruction for the Count One conspiracy. See United States

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Case: 17-10141, 03/17/2020, ID: 11631907, DktEntry: 53-1, Page 2 of 4

v. Olano, 507 U.S. 725, 732-37 (1993); United States v. Lapier, 796 F.3d 1090,
1096 (9th Cir. 2015). The jury, in its special verdict form, found Washington
guilty of a conspiracy involving crack cocaine.^Although there was evidence of
multiple conspiracies involving powder cocaine or heroin, the evidence at trial
showed that only one of the multiple conspiracies—between Washington, Paul
Mack, Gerard “Nunu” Nelson, and Nunu’s girlfriend—involved crack cocaine.
Thus, the district court did not plainly err in failing to give a conspiracy unanimity
instruction, because the evidence did not “tend[] to show multiple conspiracies”
involving crack cocaine, and there was no “genuine possibility of jury confusion
[or] risk of a nonunanimous verdict.” Lapier, 796 F.3d at 1097-98.
2. The district court did not abuse its discretion in deciding not to read back
Paul Mack’s testimony to the jury. See United States v. Richard, 504 F.3d 1109,
1113 (9th Cir. 2007). The district court explained its legitimate concerns with both
the delay of trial a readback would require and the risk of undue emphasis. See
United States v. Price, 921 F.3d 111, 792 (9th Cir. 2019). Washington makes fair
arguments as to why a readback may have been reasonable had one occurred. But
“[i]n light of the district court’s great latitude to address requests for readbacks and
its recognition of the problems associated with readbacks,” United States v.
Medina Casteneda, 511 F.3d 1246, 1249 (9th Cir. 2008), we cannot say the district
court’s decision to deny the readback was “illogical, implausible, or without

2

Case: 17-10141, 03/17/2020, ID: 11631907, DktEntry: 53-1, Page 3 of 4

support in inferences that may be drawn from facts in the record,” United States v.
Hinkson, 585 F.3d 1247, 1251 (9th Cir. 2009) (en banc).
3. We find no reversible error in the guideline sentencing calculation. The
district court did not clearly err in finding that Washington was an organizer or
leader of the Count Two conspiracy and that it involved five participants. U.S.S.G.
§ 3Bl.l(a); see United States v. Yi, 704 F.3d 800, 805 (9th Cir. 2013) (explaining
factual findings are reviewed for clear error). Nor did the district court err in
applying three criminal history points for Washington’s 1992 conviction for
possession of a controlled substance, because Washington was incarcerated for a
parole violation within the 15-year time period. U.S.S.G. § 4A1.2(e)(l), (k)(2)(A);
see United States v. Garcia-Jimenez, 623 F.3d 936, 944-45 (9th Cir. 2010)
(applying U.S.S.G. § 4A1.2(k)(2) to extend a sentence through the date of “last
release from confinement” on a parole violation).
Finally, we reject Washington’s claim that the district court abused its
discretion in assessing a two-level enhancement for witness intimidation under
U.S.S.G. § 2Dl.l(b)(16)(D). We note that this enhancement did not affect
Washington’s guideline range, which the district court calculated as 360 months to
life. Washington does not contest that he is also a career offender whose guideline
range would have been 360 months to life regardless of the enhancement.
U.S.S.G. § 4Bl.l(a)-(b). To the extent that the enhancement may have influenced

3

Case: 17-10141,03/17/2020, ID: 11631907, DktEntry: 53-1, Page 4 of 4

the district court’s selection of a sentence within the guidelines range, we find no
basis for concluding that the court abused its discretion. The record included at
least three alleged incidents of witness intimidation, one of which was the subject
of trial testimony. Although each incident involved some element of hearsay, the
district court did not abuse its discretion because the hearsay statements “were
sufficiently corroborated by each other to provide the minimal indicia of reliability
necessary[.]” United States v. Berry, 258 F.3d 971, 976-77 (9th Cir. 2001)
(finding that multiple hearsay statements that were consistent with each other
provided sufficient corroboration to be considered at sentencing).
AFFIRMED.

4

APPENDIX B
APPENDIX B
REHEARING AND REHEARING EN BANC DECISION

Case: 17-10141, 06/23/2020, ID: 11730280, DktEntry: 57, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 23 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

17-10141

D.C. No.
2:13-cr-00206-MCE-1
Eastern District of California,
Sacramento

ISRAEL WASHINGTON, AKA Puck,
ORDER
Defendant-Appellant.
Before: THOMAS, Chief Judge, and WARDLAW and COLLINS, Circuit Judges.
The panel has unanimously voted to deny the petition for rehearing and the
petition for rehearing en banc. The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are
DENIED.

